         ~ep   O?', 09 02:37p        Amtrak OIG-NYFO                                            212-630-6104                  p.2
                 Sap. 2. 2009 2: 20m                                                                           110. 3431      P. 2


     (
                                            NATIONAL RAlLROAD PASSENGER CORJ.>ORATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                  XNVJtSl'lGATIVE CLOSING REl'ORT


                          TlTU;:; Theft

                          DATE OF REPORT: Angust 2(j, 2009

                          M:POlU :PREPARED BY:


                          BACIWUOUND:

                           On Jnne 1. 2009,                                            she mistakonly got on the wrong
                           h'iliu at the                                                 purchased a ticket for the _
                          _         'l'):nnsit train to go to                            The train was behil\d schedule
                           and _got on tliO first !I'uin ill the Station, thinking it was the New Jersey Transit
                          Train. Once 011 the train she was aplll'oached by It                  and asked fOl" ller ticket.
                           She producr.d the _ T r a n s i t ricket. TIle _infOlmed hel' ihis was an,
                          Amtrak treln and that her ticket w~s 110 good on this train. He told her she would have to
                          pay $65 for Amtrak ticket. _          questioned the need to buy another ticket for $65. The
(,                        conductor told hoI' she Gould oither pay hi~l" pollee and sho would have to get
                          off the b'!lin in Newnrk. _gave the _                      $70 (a Ilfty ami a twonty) and the
                         ____ said he would Mum wIth her change. He did J:ctum with $5, bllt did not give
                         _        a receipt even thoUgll sh~ asked fOl' on6. At the            StaHon, _       got off tho
                          tmln nnd ako with a female Amlrak employeo on 1110 ll1atfonn. Thnt employee radioed
                          the train                 who rcspoudc(l to hoI' location. The situation was oxplained to the
                         . . . . .~(who was not tho                  who look her money) and he told _        to got baok
                         on the train to go to New York, hilt she did not got It receipt

                         SUMMARY OF Xl'lVES'l'IGATION:

                         1. On Juno n, 2009, tIl6 RA IIlId                                       lU\CrVleWell_       Tho
                            Ageuts had idontified Ailltrllk                                     mistakenly boarded. The
                                Agent$ had obtained the nomes Ilnd                    COI;lductors who were all the train
                                JU11e 1". with the 6xcol'tioll of                               which WDS unnvailable at
                                that time. _was unable to ioenti1,v                          toolchor money.

                        2. On JUlie 25. 2009, the RA aJt~.d~• • • •

                                           ;.i.'~~~;;ifi~d' as tho employee who spoke with_Oil the
                                           •                        whnt _   had l'oported. bllt sh" cOllldn't identify tho
                                            involved.    Howovor, tile Agents Joamcd that the radio trnnsmiesion
                                        • • • • ltnd      tho Conduotorwns r~corded .
                                                                           212·(j~0·Gl 04               p.~

Se p. 2. 2009 2: 20PM                                                                       110. 3431     P. 3



      3. On June 26, 2009, niter receivJng a copy of tile radio transmission between
                   and the _             who wus identified as
                        tho suspect            ill•••
                                                was identified


      4.                        tlle ll.A le~l'lled from
                                                         ,iiiiiliir; iiililliC
                                            Inrtle(lln fot
                                    .1i~IYA' (COTS) from.

      s.
           -
           On July 15,

           l'Ofer~nce to QUI'
           and formally charged
           violating NORAC Rule-D
           Chapter 6, Section 2, Train
                                                          been tllken o\t! of sorvlco on Jllly l, 2009,
                                                       Standards of EI[OellellCe (Tnlsl and Honesty),
                                                        conduct and violating Servico Standards,
                                                  Accounting :Procedure. •was ordered to appear
           for a hearing on these oliargos 011 J\lly 15, 2009.

      6. On August 24, 2009, the ll.A received n copy of the                 July lSlh l~
          and a copy of tho tenninatioll leUcr sent to _                  ,eSlU":u \l\at_
         told_that _ _ had relumed the $65 to                              voided tho corso
           ••i    testilled that _lIad givoll the $65 back              _     aud . . . . .
         testified by t",[ephonl). ':rhe Hearing Officel·, • • •iiil, found . ' s testimony
         convincing alld compelling nnc1lUled that tlle violations   been proven. _was
         tenninated on July 29, 2009.

     RECOMMENDAHON: .
     Based on 1110 abo"" filets case # 09· 080 should bc closed with no illrther action warranted
     }lendJug receipt of additional informatioll.


     SUpervisor:         I~-·-·                                             Date: _ _ _-,-_

     Deputy rnspector Gentt; Counsel:        ---~f. ./'a.'/
                                                         ..q'/ /
                                                      i.ALi       /fJ
                                                                 if1·       Date: _I/~
                                                              7
